HHS/OIG Audit -"Southwestern Community Action Council, Inc. Huntington, West Virginia,"(A-03-00-00551)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Southwestern Community Action Council, Inc. Huntington, West Virginia," (A-03-00-00551)
June 27, 2000
Complete
Text of Report is available in PDF format (1.01 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report presents the results of an Office of Inspector General (OIG) limited scope review of Southwestern Community
Action Council, Inc. (SCAC) in Huntington, West Virginia.   The Region III U.S. Department of Health and Human Services
(HHS), Administration for Children and Families (ACF) requested this review after program deficiencies were noted in the
triennial Head Start and Early Head Start On-Site Performance Review Instrument (OSPRI) performed in May 1999.  We
found that SCAC overspent the Head Start budget by $145,680, did not reserve sufficient funds for employees' accrued leave,
did not properly allocate employee time to appropriate programs and did not prepare and manage realistic budgets.  We
recommended that SCAC refund $145,680 for inappropriately claimed funds.  We also made several procedural recommendations
to strengthen internal controls.